No. _____________
IN THE
SUPREME COURT OF THE UNITED STATES

NATALIE ANGELES
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Natalie Angeles, pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6),
asks leave to file the accompanying Petition for Writ of Certiorari to the United
States Court of Appeals for the Fifth Circuit without prepayment of costs and to
proceed in forma pauperis. Petitioner was represented by counsel appointed
under the Criminal Justice Act, 18 U.S.C. ยง 3006A(b) and (c), in the United
States District Court for the Northern District of Texas and on appeal to the
United States Court of Appeals for the Fifth Circuit.
Respectfully submitted this the 16th day of September, 2020.
Pia Rebecca Lederman
Counsel of Record
LEDERMAN LAW FIRM
721 W. Abram Street
Arlington, Texas 76013
(817) 860-8888
pia@ledermanlawfirm.com
Attorney for Applicant

